Department of Homeland Security
   Ofﬁce of Inspector General



      TSA's Role in General Aviation Security





OIG-09-69                                  May 2009
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                       May 27, 2009

                                          Preface

The Department of Homeland Security Office of Inspector General was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

In response to a congressional request from U.S. Representative Sheila Jackson Lee,
chairwoman of the Subcommittee on Transportation Security and Infrastructure
Protection, House Committee on Homeland Security, this report addresses the current
general aviation security requirements, the threat environment, and the steps the
Transportation Security Administration has taken in the past 3 years to strengthen general
aviation security. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all who contributed to the preparation of this report.



                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................4


     Houston Is Not a “Sitting Duck for Terrorism”.............................................................4 


     General Aviation in Major Metropolitan Areas Presents Few Security Concerns ........7 


     TSA Security Requirements Include General Aviation...............................................13 


     TSA Is Using a Threat-Based Approach to General Aviation Security ......................13 


     Risk Reduction Steps Have Strengthened General Aviation Security.........................14 


     TSA Has a Record-Keeping Process for “Incidents of Concern”................................15 


     General Aviation Operations Present a Limited Threat to Security; 

     However, Steady Vigilance Must Be Maintained........................................................16 



Appendixes
     Appendix A:          Purpose, Scope, and Methodology ........................................................17 

     Appendix B:          Current TSA GA Security Requirements ..............................................18 

     Appendix C:          Actions Nonfederal Stakeholders Have Taken......................................24 

     Appendix D:          General Aviation Intelligence Assessments ..........................................28 

     Appendix E:          Major Contributors to this Report..........................................................30 

     Appendix F:          Report Distribution ................................................................................31 

Table of Contents/Abbreviations 


Abbreviations
     AOPA       Aircraft Owners and Pilots Association
     DCA        Washington Reagan National Airport
     DPA        DuPage Airport
     DHS        Department of Homeland Security
     FAA        Federal Aviation Administration
     FBO        fixed base operator
     FRZ        Washington DC Metropolitan Area Flight Restricted Zone
     GA         general aviation
     GAO        Government Accountability Office
     HAI        Helicopter Association International
     IAH        George Bush Intercontinental Airport
     LAX        Los Angeles International Airport
     LASP       Large Aircraft Security Program
     LGB        Long Beach Airport
     OI         Office of Intelligence
     OIG        Office of Inspector General
     ORD        O’Hare International Airport
     PCSSP      Private Charter Standard Security Program
     SFRA       Special Flight Rules Area
     TEB        Teterboro Airport
     TFSSP      Twelve-Five Standard Security Program
     TSA        Transportation Security Administration
     TSNM       Office of Transportation Sector Network Management
     TSI        Transportation Security Inspector
     TSOC       Transportation Security Operations Center
     VNY        Van Nuys Airport
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
           General aviation refers to all flights other than scheduled airline flights
           and military aviation. General aviation accounts for 77% of all flights in
           the United States and is a vital component of the national economy. It
           includes the very large air cargo transport sector, air medical-ambulance
           operations, flight schools, corporate aviation, and privately owned aircraft.
           General aviation activity frequently takes place alongside scheduled
           airline operations at large commercial airports, as well as at more than
           5,000 public use airports, almost all of which serve general aviation
           exclusively.

           This review was conducted at the request of Representative Sheila Jackson
           Lee, chairwoman of the Subcommittee on Transportation Security and
           Infrastructure Protection, House Committee on Homeland Security. Our
           objectives were to identify Transportation Security Administration
           security requirements for general aviation airports, threats to general
           aviation, measures taken to secure general aviation, steps nonfederal
           stakeholders have taken to enhance the security of general aviation, and
           any “incidents of concern” with security at general aviation airports. In
           addition, we evaluated allegations of security vulnerabilities at three
           Houston-area general aviation airports. These allegations were presented
           in an investigative report by a local television station.

           We determined that general aviation presents only limited and mostly
           hypothetical threats to security. We also determined that the steps general
           aviation airport owners and managers have taken to enhance security are
           positive and effective. Transportation Security Administration guidelines,
           communication forums, and alert mechanisms, coupled with voluntary
           measures taken by the owners and operators of aircraft and facilities,
           provide baseline security for aircraft based at general aviation sites.
           Significant regulation of the industry would require considerable federal
           funding. We are not making any recommendations to the Transportation
           Security Administration regarding general aviation regulations. The
           Transportation Security Administration reviewed our report and submitted
           many helpful technical corrections, but chose not to submit formal
           comments that would have been appended to the report.




                         TSA’s Role in General Aviation Security

                                         Page 1
Background
                   Within the federal government, responsibility for general aviation (GA)
                   security is shared by the Department of Homeland Security (DHS)
                   Transportation Security Administration (TSA) and the Department of
                   Transportation Federal Aviation Administration (FAA). TSA was
                   established within the Department of Transportation shortly after the
                   attacks of September 11, 2001, in accordance with the Aviation and
                   Transportation Security Act of 2001 (Public Law 107-71). This legislation
                   gave TSA responsibility for security for all modes of transportation. In
                   early 2003, TSA was moved from the Department of Transportation to the
                   newly created DHS, while the FAA remained in the Department of
                   Transportation and retained primary responsibility for GA safety. The
                   FAA continues to oversee all aircraft manufacturing, operation, and
                   maintenance, certifies pilots and airports, and regulates air traffic. TSA
                   assumed operational responsibility for passenger and baggage screening
                   and regulatory responsibility for air cargo and airport security.

                   Within TSA, the offices of Transportation Sector Network Management
                   (TSNM) and Intelligence (OI), provide oversight, guidance, and
                   information necessary for GA security. The extent to which GA operators
                   employ TSA’s voluntary guidance is not easily determined.

                   TSNM establishes policies designed to protect and secure U.S. intermodal
                   transportation systems, the safe movement of passengers, and the free flow
                   of commerce. TSNM’s strategy calls for (1) completion of industry threat,
                   vulnerability, and consequence assessments, (2) development of security
                   standards, (3) assessment of operator security status vis–à-vis existing
                   standards, (4) development of plans to close gaps in security standards,
                   and (5) enhancement of systems of security.1

                   OI is the only federal intelligence entity focused solely on security of the
                   transportation sector. OI provides TSA, FAA, the rest of the
                   transportation sector, and the broader intelligence and law enforcement
                   community with analysis, warnings, and notifications on credible and
                   imminent threats. To facilitate communication and coordination, OI has
                   placed liaison officers in key intelligence community and law enforcement
                   agencies across the federal government.

                           GA Defined

                           According to TSA, GA is a vital component of the aviation sector
                           and the national economy and accounts for approximately 77% of


1
    http://www.tsa.gov/what_we_do/tsnm/index.shtm.

                                  TSA’s Role in General Aviation Security

                                                  Page 2
                                      all flights in the United States.2 GA encompasses a wide range of
                                      activities, such as pilot training, business and personal charter
                                      flights, emergency medical services, and sightseeing. Operations
                                      at the nation’s 19,000 GA airports and helipads, only about a third
                                      of which are available for public use, range from short-distance
                                      flights in single-engine light aircraft to long-distance international
                                      flights in privately owned jets, and from emergency aero-medical
                                      helicopter operations to airship displays at sporting events. The
                                      sole common characteristic of GA operations is that flights are on
                                      demand, rather than routinely scheduled.

                                      GA Risk Studies

                                      Various government and industry studies have concluded that the
                                      risks associated with general aviation are relatively limited (see
                                      appendix D). In its November 2004 review, General Aviation:
                                      Increased Federal Oversight Is Needed, but Continued Partnership
                                      with the Private Sector Is Critical to Long-Term Success (GAO­
                                      05-144), the Government Accountability Office (GAO) concluded
                                      that “the small size, lack of fuel capacity, and minimal destructive
                                      power of most general aviation aircraft make them unattractive to
                                      terrorists, and thereby, reduce the possibility of threat associated
                                      with their misuse.” GAO concluded that while the federal
                                      government provided guidance and some funding and enforced
                                      regulatory requirements, most of the responsibility for assessing
                                      and enhancing GA security fell on airport operators. GAO
                                      recommended that TSA develop a plan for implementing a risk
                                      management approach to strengthen GA security, and that the FAA
                                      establish a documented process to review and revalidate flight
                                      restrictions. TSA and FAA generally concurred with GAO’s
                                      recommendations.
Figure 1. Photo of a Cessna 172
                                                   In January 2008, the Congressional Research Service
Skyhawk
                                                   reported that typical GA aircraft are too light to use as a
                                                   platform for conventional explosives. Moreover,
                                                   heightened vigilance among airport operators and pilots
                                                   would make it difficult to load the necessary quantity of
                                                   explosives without detection. For example, the 1,300­
                                                   pound device involved in the 1993 World Trade Center
                                                   bombing would be beyond the carrying capability of
                                                   most light GA aircraft, such as a Cessna 172 Skyhawk.
                                                   The Skyhawk is one of the most common airplanes used
                                                   by flight schools. The four-seat airplane can be used for
Source: http://en.wikipedia.org/wiki/Cessna        primary and advanced flight training. In addition, it is a

           2
               http://www.tsa.gov/what_we_do/tsnm/index.shtm.

                                              TSA’s Role in General Aviation Security

                                                              Page 3
                          practical rental aircraft for cross-country flights. However, its
                          payload capacity is approximately 830 pounds, not including the
                          weight of a pilot, passenger, or fuel. The report concluded that as a
                          platform for conventional explosives, the threat posed by light GA
                          aircraft is relatively small compared to the threat posed by trucks.3

                          In March 2008, the Aircraft Owners and Pilots Association
                          (AOPA) report, General Aviation Security, noted that GAO had
                          observed that although nuclear power facilities were not designed
                          specifically to withstand a terrorist aviation attack, they are among
                          the most hardened industrial facilities in the United States, as they
                          were designed to withstand tornadoes, hurricanes, fires, floods, and
                          earthquakes.4 The study concluded that most GA aircraft could not
                          penetrate the concrete containment vessel of a nuclear power plant,
                          release radiation through an explosion, or otherwise severely
                          damage nuclear power plants.5

                          Houston in the Media

                          Following an investigative report aired by a Houston television
                          station concerning security at three local airfields, Chairwoman
                          Sheila Jackson Lee requested that we review general aviation
                          security at these airfields, and also at others in several other
                          metropolitan areas. We performed announced visits to the airports,
                          interviewed owners, employees and stakeholders, and toured the
                          facilities. In the investigative report “Is Houston a Sitting Duck for
                          Terrorism?” reporters visited three GA airports near Houston,
                          Texas: David Wayne Hooks Airport in Spring, Texas; Sugar Land
                          Regional Airport in Sugar Land, Texas; and Lone Star Executive
                          Airport in Conroe, Texas. The television reporters identified what
                          they described as “security breaches” at all three airports.
                          Specifically, the reporters were able to approach an airfield or
                          aircraft without identifying themselves. At one airfield, the reporter
                          noted that a fence enclosed only part of the airfield.

Results of Review
        Houston Is Not a “Sitting Duck for Terrorism”
                 This review was initiated in part because of the television station’s
                 allegations. We reviewed the allegations and determined that they were
                 not compelling.

3
  Congressional Research Service, Securing General Aviation, January 2008.
4
  AOPA, General Aviation Security Initiatives Since 9-11-2001, March 5, 2008.
5
  AOPA, March 2008.

                                 TSA’s Role in General Aviation Security

                                                 Page 4
                          In each instance, the allegation of
                                                                                  Figure 2. Houston Airports Visited
                          weak security was based on reporters
                          gaining access to airfields or aircraft.         David Wayne Hooks Airport
                          However, the reporters were unaware              Location: Spring, Texas
                          of some passive security and                     Specialty: Business and military aviation
                          monitoring measures. For example,                Products and Services: Fueling, ground
                          the airports had instituted security             handling, passenger services, maintenance,
                          procedures, including 24-hour video              aircraft sales and charter, 24-hour operations
                          surveillance, locking or disabling               Staff: 225 employees
                          grounded planes, and controlling fuel            Aircraft Movements: 275,000
                          access, which the television reporters
                          did not test.                                    Sugar Land Regional Airport
                                                                           Location: Sugar Land, Texas
                                                                           Specialty: Corporate business travel
                          Combined, these airports service more            Products and Services: Fueling, ground
                          than 440,000 aircraft takeoffs and               handling, crew services, maintenance,
                          landings per year, and each routinely            luxury terminal, U.S. Customs and Border
                          operates 24 hours a day, 7 days a                Protection inspection
                          week. The volume of legitimate                   Staff: 29 municipal employees
                          activity would appear to limit                   Aircraft Movements: 85,000
                          opportunities for unobserved loading
                          or movement of aircraft. Moreover,               Lone Star Executive Airport
                          the issues identified by the television          Location: Conroe, Texas
                          reporters were not violations of GA              Specialty: Private aircraft, military
                                                                           operations
                          guidelines or any federal aviation
                                                                           Products and Services: Fuel, maintenance,
                          regulations.                                     flight training, aircraft rental, aircraft tie-
                                                                           down and hangar rentals, 24-hour operations
                                  David Wayne Hooks Airport                Staff: 135 employees, three full-service
                                                                           private companies, 13 additional aviation
                                  David Wayne Hooks Airport is             businesses
                                  the largest of the three airports        Aircraft Movements: 80,000
                                  featured in the news story. It is
                                  privately owned and operated as a for-profit enterprise. According
                                  to airport personnel, the airport has two full-time security staff, an
                                                  FAA tower operator who provides visual
Figure 3. Aerial View of David Wayne Hooks        surveillance, and 24-hour video surveillance. These
Airport
                                                  security measures have effectively deterred even
                                                  petty vandalism. The airport does not handle air
                                                  cargo, and most planes are housed in hangars,
                                                  locked, or disabled when not in use. The jet that the
                                                  television reporters approached during the filming of
                                                  their report could not have been moved from the
                                                  ramp without security personnel noticing them
                                                  tampering with the jet.

Source: www.hooksairport.com/cont.htm, 2004


                                        TSA’s Role in General Aviation Security

                                                        Page 5
Sugar Land Regional Airport

Sugar Land Regional Airport is            Figure 4. Diagram of Sugar Land Regional
smaller than Hooks, and has less          Airport
acreage and fewer services, takeoffs,
and landings. It is owned and
operated by the municipal
government. While the television
reporters noted that the fence did not
encircle the complex, creating a gap
of several hundred feet, airport
managers informed us that fencing
existed mainly to direct vehicle and
pedestrian traffic to desired
gateways for safety reasons, not to
prevent access. The perimeter
sectors without fencing were in areas
where visitors were not expected to
approach, such as from the adjoining
minimum-security prison, and from
a swamp infested with venomous
snakes and crocodiles. During our         Source: www.flysgr.com/airportoverview,
                                          2006
tour, a manager said that fencing to
prevent entry was ineffective because anyone who wanted to sneak
onto the field could scale a fence. Aviation officials explained that
fencing was ineffective as a security barrier and that meaningful
protection came from securing planes in hangars and engaging
wheel and cabin locks on aircraft equipped with these secure
devices. They further noted that while a reporter might be able to
approach and even touch an aircraft at an airport, aircraft
vulnerability does not depend on whether someone can touch a
plane.

Lone Star Executive Airport

At Lone Star Executive Airport, television reporters were able to
drive alongside a large, empty corporate jet on the tarmac.
However, airport staff stated that they have 24-hour surveillance
using infrared and motion sensor devices, and that security is
enhanced because the Drug Enforcement Agency and Texas
Department of Public Safety base their own flight operations from
the airport. The airport regularly approaches people on the ramp,
and had reported several security incidents—including one
involving a news crew seeking unauthorized access—to TSA and
the local police. Local police have a constant presence at the airport.


      TSA’s Role in General Aviation Security

                      Page 6
       Figure 5. Aerial View of Lone Star Executive Airport




       Source: www.mctx.org/air/location.html , 2005


General Aviation in Major Metropolitan Areas Presents Few
Security Concerns
     We also visited GA facilities in busy, heavily populated metropolitan
     areas where people might be at risk in the event of a GA terrorist attack.
     In addition to the Houston-area sites mentioned in the television report, we
     conducted site visits at George Bush Intercontinental Airport (IAH) in
     Houston; O’Hare International Airport (ORD) in Chicago, Illinois;
     DuPage Airport (DPA) in Carol Stream, Illinois; Los Angeles
     International (LAX), Long Beach (LGB), and Van Nuys Airports (VNY)
     in the greater Los Angeles, California, area; and Teterboro Airport (TEB)
     in Teterboro, New Jersey. We also visited Potomac Airfield in Fort
     Washington, Maryland.

             Additional Houston-Area Site Visit

             To determine whether GA might pose a threat at a major Houston-
             area airport, we visited IAH. IAH serves the greater Houston,
             Texas, area and is a connecting point for many commercial
             carriers. IAH is publicly owned and handles 2% transient GA and
             no local GA. We met with the TSA airport security manager, who
             stated that the airport security team consisted of the senior
             superintendent, operations supervisors, security coordinators, and
             officers who patrol the GA operations area. The airport security
             coordinators are responsible for key audits (accounting for all
             airport keys to the various facilities); listing emergency contact
             telephone numbers; and obtaining, issuing, and monitoring
             employee and contractor badges. The airport coordinators update
             the officers on regulations, threats, keys, and badges. IAH airport


                    TSA’s Role in General Aviation Security

                                    Page 7
                          officials do not get involved with GA except to ensure that the GA
                          facilities follow proper safety and security regulations.

                          IAH has fixed base operators at the airport. A fixed base operator
                          (FBO) is a retail facility that offers aircraft fuel, oil, and parking
                          along with access to restrooms and telephones. Some FBOs sell
                          additional aircraft services such as hangar (indoor) storage,
                          maintenance, aircraft charter or rental, flight training, deicing, and
                          ground services such as towing and baggage handling. FBOs also
                          may offer services not directly related to aircraft, such as rental cars,
                          lounges, and hotel reservations. IAH has two FBOs: Atlantic
                          Aviation and Landmark Aviation. There is no flight school at IAH.

                          There have been no incidents of concern since an aviation accident
                          in 1991 involving GA aircraft.

                          Chicago-Area Site Visits

                          ORD officials stressed that GA operations are a minor part of
                          ORD’s daily activities. Staff within the Department of Aviation
                          for the City of Chicago operate the GA facility the same way they
                          operate the commercial facility.

                          The airport staff works closely with the TSA federal security
                          director in executing their Airport Security Plan. The purpose of
                          the plan is to increase communication among airport tenants, the
                          airport manager, and law enforcement; identify specific activities
                          that should be reported; and increase awareness of security issues.
                          The elements of a typical airport security plan might include a
                          notification system to include an alerting roster of emergency
                          personnel at the airport, identification of airport security personnel
                          and their responsibilities, explanation of airport signage, the
                          incorporation of new technology such as remote cameras and noise
                          sensors, an explanation of the established routine patrols by local
                          law enforcement, a description of an annual exercise at the airport,
                          and ongoing assessments of potential threats to the airport.6

                          ORD typically handles 3% transient GA and has no local GA.
                          Signature Flight Support is the only FBO at the airport, and there is
                          no flight school.

                          There have been no incidents of concern.



6
    nmshtd.state.nm.us/upload/images/Aviation/NM_GA_Artp_Safety_and_Security07.pdf.

                                 TSA’s Role in General Aviation Security

                                                 Page 8
DPA, approximately 30 miles west of ORD in Carol Stream,
Illinois, is owned by the DuPage Airport Authority, an independent
government body established by the State of Illinois. DPA handles
58% transient general aviation and 38% local general aviation.
DPA has a 24-hour FAA air traffic control tower and more than 40
aviation and non-aviation support businesses. The airport has only
one FBO and one flight school. The airport also has an onsite U.S.
Customs and Border Protection office. There have been no
incidents of concern at the airport.

Los Angeles-Area Site Visits

LAX is publicly owned by Los Angeles World Airports and
operated by the City of Los Angeles. We observed minimal GA
operations at LAX. Transient GA comprise 2% of the daily
takeoffs and landings at LAX. There is no local GA. Landmark
Aviation and Atlantic Aviation are the two FBOs at the airport.
There are no flight schools at the airport, and there have been no
incidents of concern.

VNY, also owned by Los Angeles World Airports and operated by
the City of Los Angeles, is one of the world’s busiest GA airports.
VNY averages approximately 400,000 takeoffs and landings
annually. More than 100 businesses are located on the 730-acre
airport, including 6 major FBOs and 6 flight schools. Celebrities,
politicians, and business executives use this airport because it
offers them convenience and anonymity. There have been no
incidents of concern at the airport.

LGB has 365,000 annual GA takeoffs and landings annually,
including Life Flight donor organ and critical care patient delivery,
law enforcement, and search and rescue flights. The city-owned
airport services charter flights, private aviation planes, and flight
schools. In addition, it is a center for law enforcement flights, a
helicopter landing zone, advertising blimps, planes towing
advertising banners, and similar functions.

At LGB, 90% of the traffic is GA. Local GA accounts for 51% of
the GA traffic and transient GA accounts for 39%. Commercial
flights are restricted to 66 takeoffs and landings per day. The
airport has four shorter runways and one 10,000-foot runway used
primarily for jets. LGB has five FBOs and one flight school.
There have been no reportable incidents at the airport.




      TSA’s Role in General Aviation Security

                      Page 9
Teterboro Site Visit

TEB in Teterboro, New Jersey, is owned and operated by the Port
Authority of New York and New Jersey, which also owns and
operates LaGuardia and Kennedy airports. TEB, 12 miles west of
Manhattan, is the second most active GA airport in the country.
Airport personnel devote considerable security efforts toward
protecting the many large private jets and dignitary movements.
The airport is patrolled 24 hours a day. It has five FBOs and no
flight school. Officials have not identified any major security
threats, and there have been no security-related incidents of
concern.

There have been two aviation accidents that illustrate the effect of
GA aircraft impacting buildings.

In February 2005, a CL-600 Challenger corporate jet crashed into a
warehouse while trying to take off from TEB (see figure 6). The
plane, with 11 aboard, skidded across a busy highway during the
morning rush hour, struck two cars, and then crashed into the
building. No one was killed, though several persons were injured.
Although the damage to the building was not substantial, it should
be noted that the plane was not at full speed when it collided with
the building. In addition, an aircraft this large could have carried a
sizable load of explosives.

Figure 6. Photo of the CL-600 Challenger Crash Site




(Photo by Mario Tama/Getty Images)
Source: Jetairpollution.com, February 2005

In October 2006, a small GA aircraft piloted by New York Yankees
pitcher Cory Lidle flew from TEB and collided with an apartment

       TSA’s Role in General Aviation Security

                      Page 10
building in New York City, as shown in figure 7. The crash caused
a fire on the 40th floor of the building. Lidle and his flight
instructor were killed, and two dozen people were injured, of whom
12 were residents of the building and the others were firefighters.

Figure 7. Photo of Belaire Condominium after being hit by the Lidle
aircraft




Source: http://en.wikipedia.org/wiki/2006_New_York_City_plane_crash

National Capital Region Site Visit

Privately owned Potomac Airfield is located in a residential
neighborhood in Fort Washington, Maryland. It has one short
runway that can accommodate only small aircraft. The airport
handles 95% local and 5% transient GA. On average, the airport
has 33 aircraft takeoffs and landings per day. There is a small
flight school at the airport.

Potomac Airfield is one of three GA airports in the Washington,
DC, Metropolitan Area Flight Restricted Zone (FRZ) (figure 8).
The FRZ is contained within and forms the core of a larger, less
restricted airspace known as the Special Flight Rules Area (SFRA).
The Washington FRZ is roughly a 15-mile circle around Ronald
Reagan Washington National Airport. The current shape and size
of the Washington SFRA, roughly a 30-mile circle around
Washington, DC, was redefined in 2007.




      TSA’s Role in General Aviation Security

                     Page 11
Figure 8. Washington, DC, Metropolitan Area FRZ and SFRA




Source: http://www.faa.gov/news/updates/adiz_frz/media/070727_New_ADIZ-FRZ.jpg

Private and commercial aircraft may enter the Washington SFRA
after complying with FAA notices that require, among other
things, that the pilot file a flight plan that describes the course,
destination, and other details of the trip. The flight plan is filed
with an FAA Flight Service Station, which is an air traffic facility
that provides information and services to pilots before, during, and
after flights, but unlike air traffic control, is not responsible for
giving instructions or clearances or providing separation. The
information is passed on to FAA air traffic control for subsequent
observation of the aircraft.

Flights within the FRZ must follow more restrictive procedures.
Flight within the FRZ is restricted to governmental, certain
scheduled commercial, and a limited set of waivered GA flights.
TSA performs background checks on all pilots flying into the FRZ
and then issues a personal identification number that authenticates
the pilot’s identity. Only then is the pilot permitted to fly to an
airport in the FRZ. AOPA describes this as “a process which is
both time-consuming and inconvenient for most pilots and
extremely prohibitive for pilots outside the Washington, DC, metro
area.” Nonvetted pilots who penetrate the FRZ could face severe



      TSA’s Role in General Aviation Security

                     Page 12
                         penalties, including the loss of their pilot’s certificate.7 These
                         requirements have had a considerable effect on the Maryland GA
                         airports referred to as the “Maryland Three” or “DC-3”: College
                         Park Airport in College Park, Washington Executive/Hyde Field in
                         Clinton, and Potomac Airfield in Fort Washington.


        TSA Security Requirements Include General Aviation
                 TSA scales its security strategy to the wide range of airfield environments
                 and classes of operators and aircraft, rather than introducing overly broad
                 regulations that are costly to implement. TSA works closely with the
                 many associations of GA owners and operators to implement voluntary
                 security measures based on threat analysis and risk management. In
                 addition, TSA has introduced voluntary guidelines that are being used
                 throughout the GA community, and has developed several programs
                 targeted at the most vulnerable GA sectors, such as the Twelve-Five
                 Standard Security Program that requires additional security for charter
                 aircraft weighing between 12,500 and 103,309 pounds, and the Maryland-
                 Three Program to reduce the perceived threats posed by GA airports in the
                 vicinity of Washington, DC. TSA has also evaluated the effect of its
                 security initiatives on the GA industry and, where applicable, its effect on
                 modeling international industry best practices and security measures.8 A
                 complete list of TSA’s security requirements is provided in appendix B.


        TSA Is Using a Threat-Based Approach to General Aviation
        Security
                 TSA analyzes credible intelligence information to determine and prioritize
                 the existing threats. The Office of Intelligence, which has primary
                 responsibility for assessing potential terrorist threats, has conducted an
                 extensive evaluation of threats that would affect or involve the GA
                 industry.9 OI has identified several organizations that have shown an
                 interest in using GA to obtain flight training or to launch attacks, and OI
                 continues to monitor reports of activity by these organizations. OI also
                 assesses how aircraft, ranging from helicopters to large aircraft, might be
                 used to launch an attack, including how a terrorist might gain access and
                 what damage could be inflicted. In addition to foreign terrorist
                 organizations, OI assesses the potential of less traditional threats, such as


7
  www.AOPA.org, “Air Traffic Services Brief: Washington, DC, Flight Restricted Zone/‘DC-3’ Airports,” 

November 6, 2007. 

8
  www.tsa.gov/what_we_do/tsnm/general_aviation/index.shtm.

9
  TSA Office of Intelligence, The Threat to General Aviation: 2007 Modal Assessment.


                                TSA’s Role in General Aviation Security

                                               Page 13
                narcotics traffickers and domestic terrorist groups targeting jets of specific
                corporations.

                Although OI has identified potential threats, it has concluded that most
                GA aircraft are too light to inflict significant damage, and has not
                identified specific imminent threats from GA aircraft. OI has also
                concluded that there is no credible threat of crop-dusting aircraft being
                used to spread chemical or biological agents. However, OI noted that
                various intelligence sources have identified helicopters as aircraft of
                ongoing interest to terrorists. OI also stated that the potential for a
                terrorist group to use GA aircraft to conduct an attack remains a possibility
                that cannot be ignored.


        Risk Reduction Steps Have Strengthened General Aviation
        Security
                Based on threat assessments conducted by OI and other federal
                intelligence agencies, as well as the heightened awareness of aviation
                vulnerabilities since September 11, 2001, TSA has identified practical,
                targeted measures to lessen risks in the aviation sector.10

                TSA requires GA facilities that train pilots to conduct name checks for
                non-U.S. citizens seeking flight training. TSA has the authority to direct
                the FAA to immediately suspend, revoke, or refuse to issue licenses to
                pilots who pose a national security threat. TSA requires screening for GA
                aircraft operators who request access to restricted airspace, such as
                airspace in high-risk urban areas or near key infrastructure. TSA also
                conducts routine inspections of flight school providers, operators of heavy
                aircraft, and private charter operations.

                The Aviation Security Advisory Committee reviewed GA airport security
                and concluded that nonfederal stakeholders have taken extensive voluntary
                measures to limit security vulnerabilities.11 Measures range from pilot
                awareness programs and guidelines for flight schools to assisting airports
                in developing security plans and assisting businesses in identifying
                inappropriate airplane purchase offers. GA operators also may implement
                TSA guidelines that provide owners, operators, sponsors, and other
                entities responsible for oversight of GA airports with a set of federally
                endorsed security enhancements and a method for determining when and
                where these enhancements may be appropriate. Examples include

10
   Aviation Security Advisory Committee Report of the Aviation Security Advisory Committee Working 

Group on General Aviation Airports Security, http://www.tsa.gov/assets/pdf/ASAC_Working_Group_11­
2003.pdf. 

11
   Ibid. 


                                TSA’s Role in General Aviation Security

                                               Page 14
     securing aircraft against unauthorized access, verifying identity of all
     passengers, and documenting that all baggage and cargo is known to the
     occupants of the aircraft. TSA has established strong lines of
     communication and working partnerships with industry stakeholders,
     which in turn enable the GA industry to obtain, assess, and provide
     security programs and policies to address security vulnerabilities. Industry
     stakeholders told us that areas for improved communication remain, and
     cited the recent release of Security Directive 8F. Little information about
     the directive is available as a result of the directive’s classification as
     sensitive security information. Because of this classification, information
     about the directive is not available to many of the affected owners,
     operators, or their employees. Another result of the classification of the
     directive is that there was no public comment period for the proposed
     rulemaking.

     Appendix C describes the actions that nonfederal stakeholders have taken.


TSA Has a Record-Keeping Process for “Incidents of Concern”
     Although security experts throughout the federal government and the GA
     industry have concluded that risks inherent in GA are limited, TSA and
     the industry have introduced numerous targeted security measures to
     reduce the industry’s vulnerabilities. They have also introduced
     procedures for documenting and responding immediately to potential
     security incidents. Specifically, TSA coordinated with AOPA to establish
     the General Aviation Hotline and the Airport Watch Program.

     The hotline, developed in partnership with the National Response Center
     at TSA and in coordination with AOPA, is a centralized reporting system
     for GA pilots, airport operators, and maintenance technicians to report
     suspicious activity at their airfield. The hotline was developed to
     complement the AOPA Airport Watch Program. For each program,
     incidents are reported to TSA’s Transportation Security Operations Center
     (TSOC), where reported incidents are logged into a database. After an
     analyst evaluates the information, TSOC may contact the appropriate
     authorities to alert them to potential danger.

     Our review of incidents reported to TSA indicates that the GA industry is
     using the GA Hotline and Airport Watch Program appropriately, but that
     incidents that might represent a security threat are rare.

     One recent incident that could have had security implications, but did not,
     took place on April 22, 2008. It involved a private charter aircraft with
     one passenger flying to the United States from abroad. The aircraft
     arrived in the United States without having previously filed an

                  TSA’s Role in General Aviation Security

                                 Page 15
                  International Airspace Waiver with TSA and FAA.12 The aircraft departed
                  from Germany, made a refueling stop in Iceland, and continued on to
                  Chicago. Federal officials met the flight. The pilot was notified that he
                  had not filed an International Airspace Waiver with the FAA. A TSA
                  transportation security inspector placed a ground hold on the aircraft until
                  the proper paperwork was filed and clearances obtained. TSA told us that
                  the incident was detected through the Automated Detection and
                  Processing Terminal (ADAPT).


         General Aviation Operations Present a Limited Threat to
         Security; However, Steady Vigilance Must Be Maintained
                  The current status of GA operations does not present a serious homeland
                  security vulnerability requiring TSA to increase regulatory oversight of
                  the industry. According to OI, there is no specific, credible information of
                  ongoing plots to use GA in an attack in the near future. Other government
                  agencies, including GAO and the Congressional Research Service, have
                  examined catastrophic scenarios and have concluded that the GA industry
                  does not represent a serious vulnerability (see appendix D).

                  In addition, TSA has worked cooperatively with the industry to establish
                  guidelines and voluntary measures designed to target the most serious
                  vulnerabilities, including screening pilots and restricting access to airspace
                  over urban areas and key infrastructure (see appendixes B and C). TSA is
                  creating new regulations but has been cautious to balance potential costs—
                  and the GA industry’s established history of implementing security
                  improvements voluntarily—against the benefits of a regulatory regime.
                  For these reasons, we conclude that TSA’s response to threats in the GA
                  sector has been appropriate, and we are making no recommendations for
                  additional measures in this review. Nonetheless, TSA and the GA
                  industry must continue to be vigilant.




12
   TSA and FAA use waiver requests to conduct background checks on crewmembers and passengers on
flights for which waivers of flight restrictions have been sought from the FAA. In cases such as this one,
the flight restriction in question pertains to international flights to the United States.

                                  TSA’s Role in General Aviation Security

                                                  Page 16
Appendix A
Purpose, Scope, and Methodology

            At the request of Chairwoman Sheila Jackson Lee, Subcommittee on
            Transportation Security and Infrastructure Protection, House Committee
            on Homeland Security, we reviewed TSA regulations governing GA
            security. Our objectives were to identify (1) current TSA security
            requirements for GA airports; (2) current threats to GA, whether TSA has
            identified those threats, and how those threats leave GA airports
            vulnerable; (3) steps TSA has taken to strengthen GA security and
            challenges TSA faces; (4) steps nonfederal stakeholders have taken to
            enhance GA security and other actions they can take; and (5) any record of
            “incidents of concern” with security at GA airports.

            Our scope was limited to TSA and GA airports. We examined airport
            tenants such as flight schools and FBOs, which provide hangar space,
            maintenance, and fuel to aircraft. We visited a sample of GA facilities of
            varying sizes and in locations near and away from major population
            centers. Our review included airports in California, Texas, Illinois, New
            Jersey, and the National Capital Region. The four sites visited in Texas
            included the three identified in the television reports that prompted the
            chairwoman’s letter.

            We reviewed relevant documentation such as legislation, reports, current
            TSA regulations, published guidelines, policies, and procedures. We
            interviewed TSA and private sector personnel who have a stake in GA
            security. We also gathered information from GA advocates and
            stakeholders affiliated with the Aviation Security Advisory Committee
            working group, which developed guidelines for security enhancements at
            GA facilities. We relied on sources of evidence from state and local law
            enforcement officials.

            We assessed the effectiveness of TSA’s current GA security requirements
            at the sites we visited. During these visits, we examined airport security
            policies, procedures, and practices. Finally, to respond to Chairwoman
            Jackson Lee’s inquiry regarding “incidents of concern,” we examined
            TSA’s record of reported incidents and records from airport owners or
            managers. After conducting our review and establishing that TSA and the
            industry are making a concerted effort to collaborate and ensure that the
            industry is secure, we have determined that we have no recommendations
            for TSA.

            Our fieldwork was performed between April 2008 and September 2008.
            This review was conducted under the authority of the Inspector General
            Act of 1978, as amended, and according to the Quality Standards for
            Inspections issued by the President’s Council on Integrity and Efficiency.



                         TSA’s Role in General Aviation Security

                                        Page 17
Appendix B
Current TSA GA Security Requirements


                    The following requirements have been established by TSA as noted by the
                    Transportation Sector Network Management, Office of General Aviation,
                    and as reported by AOPA.13 Although the scope of the review did not
                    require that we evaluate each TSA GA security requirement, we believe
                    that current TSA GA requirements represent a good strategic approach.

                    Airspace Waivers

                    According to TSA records, the Office of Airspace Waivers manages the
                    process and assists with the review of GA aircraft operators who ask to
                    enter restricted airspace. Each waiver applicant is required to provide his
                    or her last and first names, Social Security number, and date and place of
                    birth. This information allows the Office of Airspace Waivers to vet the
                    applicants for subsequent approval or denial to fly into restricted airspace.
                    Applications must be filed for aircraft operating into, out of, within, and
                    flying over the United States. The process also includes an evaluation of
                    the aircraft, crew, passengers, and purpose of the flight. The application is
                    then adjudicated and recommended for approval or denial to the FAA,
                    Office of Air Traffic Services. The FAA shares the responsibility for
                    managing the waivers with TSA. The FAA asserts the safety provisions,
                    while TSA manages the security portion of the process. Airspace waivers
                    help to mitigate the threat of an airborne attack.

                    Flight School Security Regulations

                    The Interim Final Rule at 49 CFR 1522.23(d), Flight Training for Aliens
                    and Other Designated Individuals: Security Awareness Training for Flight
                    School Employees, requires flight schools to ensure that all of their flight,
                    ground, and chief instructors, as well as administrative personnel who
                    have direct contact with students, receive both initial and recurrent
                    security awareness training. Flight schools may choose to use the TSA
                    security awareness program or develop their own. If a flight school
                    chooses to develop its own program, the program must adhere to the
                    standards in the rule.

                    Current Security Programs

                    Secure Fixed Base Operator Program

                    The TSA Secure Fixed Base Operator Program was launched on
                    December 31, 2007, with industry partner Signature Flight Support, at
                    Anchorage, Alaska, and Shannon, Ireland. This public-private partnership

13
     AOPA, General Aviation Security Initiatives Since 9-11-2001, March 5, 2008.

                                   TSA’s Role in General Aviation Security

                                                  Page 18
Appendix B
Current TSA GA Security Requirements

                    program allows FBOs to check passenger and crew identification against
                    manifests or, as of May 18, 2009, the Electronic Advance Passenger
                    Information System. The latter is a U.S. Customs and Border Protection
                    web-based application that collects electronic traveler manifest
                    information from commercial carriers for international flights arriving in
                    or departing from the United States. The system then passes manifests to
                    Customs and Border Protection through the Advance Passenger
                    Information System. According to a TSA official, “working in close
                    coordination with industry partners, TSA believes that this security
                    initiative will provide additional security for flights inbound to the United
                    States. The broader application of such programs will provide robust
                    security while maintaining operational flexibility for general aviation
                    operators.”

                    Twelve-Five Standard Security Program

                    The Twelve-Five Standard Security Program (TFSSP) requires that certain
                    aircraft operators using aircraft with a maximum takeoff weight of 12,500
                    pounds or more execute a security program. Operators were required to
                    be in compliance with the program effective April 1, 2003.

                    Private Charter Standard Security Program

                    The Private Charter Standard Security Program (PCSSP) requires
                    operators to execute a security program, but adds additional requirements
                    for aircraft operators who use aircraft with a maximum takeoff weight of
                    more than 100,309 pounds or with a seating configuration for 61 or more
                    passengers. Operators were required to be in compliance with the
                    program effective April 1, 2003.

                    This program subjects operators of large charter aircraft to the same
                    processes that are associated with commercial passenger aviation,
                    including passenger screening through metal detection devices, x ray
                    systems for carry-on and checked luggage, and a certified passenger and
                    baggage screening workforce.14

                    Large Aircraft Security Program

                    TSA has issued a Notice of Proposed Rulemaking that seeks to amend the
                    TFSSP and PCSSP and apply new security requirements to all aircraft
                    weighing more than 12,500 pounds. In addition, TSA proposes that
                    airports serving large aircraft should adopt mandatory security
                    requirements. Among the requirements in the proposal, the major

14
     http://www.nbaa.org/ops/security/programs/pcssp/ (URL as of January 14, 2009).

                                   TSA’s Role in General Aviation Security

                                                  Page 19
Appendix B
Current TSA GA Security Requirements

                   provisions for aircraft operators include criminal history record checks and
                   security threat assessments for flight crew, checking passenger names
                   against the TSA’s No-Fly and Selectee lists, developing a security
                   program, and biennial auditing of the security program. Additionally, the
                   proposal would require approximately 320 airports designated by the
                   Department of Transportation as “reliever” airports, and airports that
                   regularly serve scheduled or public charter operations in large aircraft, to
                   adopt a “partial” airport security program that would include specific
                   training, record retention, personnel, and notification requirements.

                   The GA industry asked TSA to extend the period for public comment on the
                   agency’s Large Aircraft Security Program (LASP) proposal by 60 days. As
                   a result of the extension, the new deadline for public comment was
                   February 27, 2009. LASP would require U.S. operators of aircraft
                   exceeding 12,500 pounds takeoff weight to implement a security program
                   much like that for charter operators of large aircraft, described above in the
                   section on the PCSSP. The proposed LASP rule would add requirements
                   for large aircraft operators and some airports receiving those aircraft. In
                   addition, large aircraft operators would be required to submit to compliance
                   audits of their security programs using TSA-approved auditors and to verify
                   that their passengers are not on the No Fly or Selectee portions of the
                   consolidated terrorist watch list maintained by the federal government
                   through the use of a TSA-approved watch list provider.15

                   Many GA organizations vigorously oppose LASP. Melding the TFSSP
                   into the much more elaborate PCSSP would push existing security efforts
                   for the largest charter flights down to many smaller aircraft involved in
                   corporate and private aviation

                   Rules for the Aviation Community

                   Washington Reagan National Airport Access Standard Security Program

                   TSA Interim Final Rule, 49 CFR (Parts 1520, 1540, and 1562), developed
                   in coordination with other DHS agencies and the Department of Defense,
                   takes into consideration the special security needs of Washington Reagan
                   National Airport (DCA). Under the TSA security plan, 48 GA flights per
                   day are allowed in and out of Washington Reagan National Airport. All
                   GA aircraft are required to meet the security measures set forth in the
                   Washington Reagan National Airport Access Standard Security Program.
                   To meet security measures, TSA is to conduct a series of steps, which
                   include an inspection of crew, passengers, accessible and checked
                   property, and the aircraft. Passenger and crew manifests are to be

15
     Transportation Sector Network Management, Office of General Aviation, March 2008.

                                  TSA’s Role in General Aviation Security

                                                 Page 20
Appendix B
Current TSA GA Security Requirements

            submitted 24 hours in advance of each flight. TSA is to execute enhanced
            background checks for all passengers and fingerprint-based criminal
            history records check for flight crew. There is to be an armed security
            officer on board each flight. All Washington Reagan National Airport
            Access Standard Security Program flights must depart from an approved
            gateway airport (an airport authorized by TSA to “send” GA flights to
            DCA). According to TSA, there are 21 approved gateway airports.

            Maryland-Three Program

            The Maryland-Three Program allows properly vetted private pilots to fly
            to, from, or between the three GA airports within the National Capital
            Region. These airports are College Park Airport, Potomac Airfield, and
            Hyde Executive Field, and all are located within the Washington, DC
            Metropolitan FRZ.

            GA Community Several Security Advisories

            According to TSA officials, TSA has provided the GA community
            advisories to execute security requirements. TSA encourages GA aircraft
            and airport owners and operators to consider securing unattended aircraft
            to prevent unauthorized use and verify the identification of crew and
            passengers prior to departure. TSA also advises the GA community to
            verify that baggage and cargo are known to the persons on board. Where
            identification systems exist, TSA requests the GA community to
            encourage employees to wear proper identification and challenge persons
            not wearing proper identification. At one GA facility in Chicago, airport
            security officials punish employees who do not properly display their
            airport identification. The penalties range from a verbal warning to
            dismissal. It is also stressed that they be aware of and report persons
            whose identification appears altered or inconsistent.

            TSA stresses to the GA community that it must direct increased vigilance
            to unknown pilots or clients for aircraft or helicopter rental or charters, as
            well as to unknown service and delivery personnel. TSA emphasizes that
            the GA community must be aware of and report the following: individuals
            impersonating pilots, security personnel, emergency medical technicians,
            or other uniformed airport personnel using vehicles to gain access to
            aviation facilities or aircraft; aircraft with unusual or unauthorized
            modifications; persons loitering in the vicinity of aircraft or air operations
            areas, persons loading unusual or unauthorized payload onto aircraft, or
            persons who exhibit odd behavior.




                          TSA’s Role in General Aviation Security

                                         Page 21
Appendix B
Current TSA GA Security Requirements

            Security Initiatives

            General Aviation Hotline and Airport Watch

            TSA has developed and implemented a GA Hotline, 866-GA-SECURE
            (1-866-427-3287), in partnership with the National Response Center. The
            hotline serves as a centralized reporting system for GA pilots, airport
            operators, and maintenance technicians to report suspicious activity at
            their airfield.
            Figure 9. Aircraft Owners and Operators Association Airport Watch




            Source: Airport Watch Brochure, www.aopa.org/airportwatch/brochure.pdf, 1995–2008,
            Aircraft Owners and Pilots Association.

            The hotline was developed in coordination with AOPA to complement the
            AOPA Airport Watch program “Lock Up, Look Out” (Figure 9).
            According to an AOPA official, this program enlists the support of
            approximately 550,000 GA pilots to watch for and report suspicious
            activities that might have security implications. According to an AOPA
            official, AOPA has distributed Airport Watch materials to 5,400 public-
            use GA airports, several pilot groups, and thousands of individual pilots.
            The program provides special materials, including a video to train pilots to
            be alert for suspicious people or activities on the airport.

            Airport Security Guidelines

            In April 2003, TSA requested that the Aviation Security Advisory
            Committee Working Group establish a working group consisting of GA
                           TSA’s Role in General Aviation Security

                                          Page 22
Appendix B
Current TSA GA Security Requirements

            industry associations, airport operators, and state and federal government
            representatives to develop guidelines for security enhancements at GA
            airports nationwide. This list of recommended guidelines or best practices
            was designed to establish nonregulatory standards for GA airport security.
            Their primary purpose is to help prevent the unauthorized use of a GA
            aircraft in an act of terrorism against the United States.

            Members of the working group reviewed numerous GA airport security
            recommendations and industry best practices. The result of this effort was
            the Report of the Aviation Security Advisory Committee Working Group
            on Aviation Airports Security, available at
            http://www.tsa.gov/assets/pdf/ASAC_Working_Group_11-2003.pdf.

            On November 17, 2003, the Aviation Security Advisory Committee
            formally transmitted the report’s recommendations to TSA. TSA used this
            report as a baseline from which to create the “Security Guidelines for
            General Aviation Airports.” These federally endorsed guidelines are used
            to enhance security at GA facilities throughout the Nation by addressing
            aviation security concepts, technology, and enhancements.

            TSA Access Certification

            TSA launched a pilot project in cooperation with the National Business
            Aviation Association at Teterboro Airport and Morristown Municipal
            Airport in New Jersey and White Plains Airport in New York. The
            initiative was to provide a “proof of concept” to validate a National
            Business Aviation Association-proposed security protocol, which led to
            the TSA Access Certification and a corporate waiver for certain types of
            operations, such as international flights to and from the United States.
            Phase I of the pilot program was completed on June 30, 2003. Phase II
            was completed on December 31, 2003.

            Recommended Security Action Items for Fixed Base Operators

            These Security Action Items were created for FBOs. Most of these
            measures complement the guidance in the May 2004 Security Guidelines
            for General Aviation Airports. TSA has confirmed the value of these
            measures during discussions, outreach sessions, and security reviews with
            partners representing FBOs. The security action items are presented in six
            categories: (1) general security measures, (2) FBO security coordinator,
            (3) FBO training outline, (4) aircraft security, (5) transient pilots, and (6)
            reporting suspicious activity.




                          TSA’s Role in General Aviation Security

                                         Page 23
Appendix C
Actions Nonfederal Stakeholders Have Taken

                  The following actions taken by nonfederal stakeholders are summarized
                  from the Aviation Security Advisory Committee Working Group 2003
                  report:16

                  Aircraft Owners and Pilots Association

                  AOPA developed a nationwide aviation watch system, the Airport Watch
                  Program, which allows the Nation’s 550,000 pilots to use a TSA-
                  supported centralized toll-free hotline to report and act on information
                  provided by GA pilots and other individuals at airports. The Airport
                  Watch Program includes warning signs for airports, informational
                  literature, and a training videotape to educate pilots and airport employees
                  about ways to enhance the security of their airports and aircraft.

                  Airports and Airport Tenants

                  Many airports and individual airport tenants have already implemented
                  security enhancements in addition to the aforementioned Airport Watch
                  Program. Such initiatives include installing alarm systems; controlling
                  access; and monitoring and improving gates, fencing, and lighting. Some
                  airports are also experimenting with new technologies in security
                  monitoring, surveillance, and access control, including Wi-Fi—wireless
                  fidelity communications—and sophisticated target acquisition software
                  programs.

                  American Association of Airport Executives

                  The American Association of Airport Executives, General Aviation
                  Airport Security Task Force, delivered a set of eight recommendations to
                  TSA in June 2002. The recommendations were developed by establishing
                  categories of airports based on runway length and number of based
                  aircraft. Recommendations included establishing a threat communication
                  system, developing a new pilot license, securing aircraft, and expanding
                  the FAA contract tower program.

                  Experimental Aircraft Association

                  The Experimental Aircraft Association mobilized its network of nearly
                  1,000 chapters nationwide to improve security at many of the Nation’s
                  airports through increased knowledge and vigilance. Airport Watch
                  distributed videotapes and other educational materials concerning security
                  practices and airspace restrictions nationwide. In addition, updated Notices
                  to Airmen are provided near-real-time to pilots via the association’s website

16
     http://www.tsa.gov/assets/pdf/ASAC_Working_Group_11-2003.pdf.

                                 TSA’s Role in General Aviation Security

                                                Page 24
Appendix C
Actions Nonfederal Stakeholders Have Taken

                  and direct e-mail, to warn of security-sensitive areas and airport closures.
                  The Experimental Aircraft Association has led the development of new
                  sport pilot and light sport aircraft regulations, which will help to improve
                  security by registering with the FAA an estimated 10,000 to 15,000
                  previously unregistered ultralight training aircraft and certifying a similar
                  number of ultralight pilots and instructors who heretofore had not been part
                  of the FAA certification process.

                  General Aviation Coalition (no longer active)

                  In December 2001, the General Aviation Coalition issued a series of 12
                  recommendations for GA security. The government and the GA
                  community have implemented many of them.

                  General Aviation Manufacturers Association

                  The General Aviation Manufacturers Association, in conjunction with the
                  U.S. Department of the Treasury, is working to help aircraft sellers
                  identify unusual financial transactions that could indicate attempts to
                  launder money via the purchase of aircraft, or otherwise suspicious
                  customer behavior. The publication titled “Guidelines for Establishing
                  Anti-Money Laundering Procedures and Practices Related to the Purchase
                  of General Aviation Aircraft” was developed in consultation with
                  manufacturers, aviation finance companies, used aircraft brokers, and
                  fractional ownership companies.

                  Helicopter Association International

                  The Helicopter Association International (HAI) significantly enhanced its
                  efforts to keep members informed of developing security issues. HAI
                  made changes to its website by including a separate, clearly marked
                  “Security Issues” link on its homepage, links to the FAA’s Notices to
                  Airmen website, other pages that have graphical depictions of Temporary
                  Flight Restrictions, and links to various federal agency organizational
                  charts and new, pertinent rules and regulations. HAI has coordinated a
                  number of issues with security officials, including alternate means of
                  compliance with the Twelve-Five Rule for firefighting and offshore
                  operations, discrete transponder codes for electronic news-gathering
                  helicopters that allow certain operations within the FRZ and waivers for
                  flying over sporting events, utility patrol requirements, and heliport
                  security.17 Additionally, HAI is developing a Call-When-Needed program
                  to provide a nationwide resource of prevetted pilots and prescreened

17
  Transponders produce a response when they receive a radio-frequency interrogation. In aviation, aircraft
have transponders to assist in identifying them on radar and on other aircrafts’ collision avoidance systems.

                                  TSA’s Role in General Aviation Security

                                                   Page 25
Appendix C
Actions Nonfederal Stakeholders Have Taken

            aircraft with a broad range of capabilities that can respond to natural
            disasters or security-related events.

            National Agricultural Aircraft Association

            The National Agricultural Aircraft Association has produced an
            educational program called the Professional Aerial Applicators Support
            System that includes a new educational portion every year, specifically
            addressing security of aerial application or crop-dusting operations. The
            Professional Aerial Applicators Support System program annually reaches
            roughly 2,000 people. It is presented at state and regional agricultural
            aviation association meetings throughout the country. In addition,
            National Agricultural Aircraft Association members have undergone
            several industry-wide Federal Bureau of Investigations background
            investigations since September 11, 2001.

            National Air Transportation Association

            On September 24, 2001, the National Air Transportation Association
            issued a series of recommended security procedures for all aviation
            businesses through its Business Aviation Security Task Force. The
            recommendations focused on immediate steps that should be taken, as
            well as longer term actions. Examples included improving signage,
            appointing a single manager responsible for security at each location,
            developing a security mission statement, verifying identification, and
            seeking local law enforcement assistance to develop security plans. In
            addition, an advisory poster was created and distributed free to all
            National Air Transportation Association members.

            National Association of Flight Instructors

            The National Association of Flight Instructors, an affiliate of the
            Experimental Aircraft Association, has developed a series of security
            recommendations and best practices for flight schools and flight instructors
            that have been distributed widely throughout the flight training community.
            Currently, the National Association of Flight Instructors is working in
            cooperation with TSA to develop training materials and distribution
            methods to support flight school security awareness training.

            National Association of State Aviation Officials

            In December 2002, the National Association of State Aviation Officials
            submitted to federal and state authorities a document outlining GA
            security recommendations, which included securing unattended aircraft,
            developing a security plan, and establishing a means to report suspicious

                          TSA’s Role in General Aviation Security

                                         Page 26
Appendix C
Actions Nonfederal Stakeholders Have Taken

            activity. In addition, it recommends that airports establish a public
            awareness campaign, perform regular inspection of airport property, and
            control movement of persons and vehicles in the aircraft operating area.
            The state aviation officials suggested that federal authorities implement a
            new pilot ID, establish a government watch list to verify the identity of
            persons requesting flight lessons, implement a process for categorizing
            airports, and ensure adequate federal funding for airport security.

            National Business Aviation Association

            TSA launched a pilot project in cooperation with the National Business
            Aviation Association at Teterboro Airport in New Jersey. TSA has
            expanded the project to include Part 91 operators—operations involving
            small noncommercial aircraft—based at Morristown, New Jersey, and
            White Plains, New York. This initiative is proceeding as a proof of
            concept validating a National Business Aviation Association proposed
            security protocol for Part 91 operators who can apply for a TSA Access
            Certificate. The TSA Access Certificate allows operators to operate
            internationally without the need for a waiver. TSA is also considering
            granting access for TSA Access Certificate holders to designate temporary
            flight restrictions.

            United States Parachute Association

            The United States Parachute Association disseminated detailed security
            recommendations to its 219 skydiving clubs and centers across the United
            States, most of them based on GA airports. Skydive operators and their
            customers are often in airports during days and hours when others are not,
            and can enhance any airport watch program. Other recommendations
            were aimed at ensuring security of jump aircraft during operations as well
            as when aircraft are idle.




                          TSA’s Role in General Aviation Security

                                         Page 27
Appendix D
General Aviation Intelligence Assessments

             The following GA intelligence assessments have examined the magnitude
             of destruction that terrorists could accomplish.

             Government Accountability Office

             In September 2004, a GAO report stated that “nuclear power facilities are
             among the most hardened industrial facilities in the United States. They
             are massive structures with thick exterior walls and interior barriers of
             reinforced concrete designed to withstand tornadoes (and projectiles
             propelled by tornadoes), hurricanes, fires, floods, and earthquakes.”
             While most facilities were not designed around the notion that terrorists
             might deliberately crash an aircraft into them, most were designed to
             withstand an accident involving an aircraft.

             Aircraft Owners and Pilots Association

             An AOPA-commissioned report revealed that a GA aircraft could not
             penetrate the concrete containment vessel of a nuclear power plant. Nor
             would an explosives-laden GA aircraft likely cause the release of
             radiation. A small aircraft attack on any auxiliary plant buildings would
             not cause a safety failure, and a GA aircraft could not ignite the zirconium
             cladding on spent nuclear fuel. In short, GA aircraft are not a threat to
             nuclear power plants.

             Congressional Research Service

             In its December 2005 report and most recently updated January 2008 report
             on Securing General Aviation, the Congressional Research Service stated
             that “the limited capabilities of the typical GA aircraft to carry conventional
             explosives, noting that even the 1,300-pound device involved in the
             February 1993 World Trade Center bombing would be beyond the carrying
             capability of a light GA aircraft. Thus, at least with regard to being used as
             a platform for conventional explosives, the threat posed by light GA aircraft
             is relatively small compared to trucks which have significantly larger
             payload capacities…. Executing an attack that involves loading a GA
             aircraft with a large quantity of explosives may be difficult without raising
             some suspicion at the airport, at least domestically where airport operators
             and pilots have been instructed to be vigilant for unusual activities.”

             According to the Congressional Research Service, “Improving upon GA
             security without unduly impeding air commerce or limiting the freedom of
             movement by air remains a significant challenge. However, policymakers
             have received mixed signals about the relative security risk posed by GA



                           TSA’s Role in General Aviation Security

                                          Page 28
Appendix D
General Aviation Intelligence Assessments

                    due to its diversity and a general lack of detailed information regarding the
                    threat and vulnerability of various GA operations.”18




18
     Congressional Research Service, Securing General Aviation, January 2008.

                                   TSA’s Role in General Aviation Security

                                                  Page 29
Appendix E
Major Contributors to this Report


                    Douglas Ellice, Chief Inspector, Department of Homeland
                    Security, Office of Inspections

                    Peggy Mayfield, Team Leader, Department of Homeland Security,
                    Office of Inspections

                    Levar Cole, Inspector, Department of Homeland Security, Office
                    of Inspections




                         TSA’s Role in General Aviation Security

                                        Page 30
Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      DHS OIG Audit Liaison
                      TSA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                            TSA’s Role in General Aviation Security


                                           Page 31

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
